HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Stratford Court, Boca Raton, Florida, (A-04-96-01124)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Stratford Court, Boca Raton, Florida," (A-04-96-01124)
December 6, 1997
Complete
Text of Report is available in PDF format (1.14 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from November 1, 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $161,774 in charges reported for the 29 sample beneficiaries in our study.
This amount comprises $141,878 related to physical, occupation and speech therapy services that were determined to be medically
unnecessary and $19,896 in undocumented rehab services. Therefore, we are recommending an adjustment of the above charges.
In addition, we request that the Fiscal Intermediary conduct a focused review of all rehab therapies (and the use of standing
orders) at this facility since the period of our review in order to recoup overpayments made to this skilled nursing facility
and to implement corrective action by the facility.